    REINVENTION PROPOSALS
           PHASE II
        SEPTEMBER 26, 1995




                 O




OFFICE OF INSPECTOR GENERAL
RAILROAD RETIREMENT BOARD
 INTRODUCTION
 This report represents the second Reinvention Proposal submitted by the Office
 of Inspector General (OIG). The report addresses three areas in which the 010
 beUeves changes must be made in order to improve the economy and efficiency
 of operations and the overall control environment at the Railroad Retirement
 Board (RRB).

First. the organizational structure should be revised to consolidate operations
of the exiSting 22 bureaus into 5 major bureaus. Second. the network of field
service offices should be reduced from 86 to 10. Third. the organizational
culture should change from one of mlcromanagement to an entrepreneurlal
atmosphere which welcomes change. Specific reasons for these proposals are
discussed in this report.


BACKGROUND
The National Performance Review (NPR), the 1993 Government Performance
and Results Act (OPRA) and Increased public pressure require that Federal
agencies review their operating strategies to· provide improved services to their
customers in the most efficient manner. Each of these Initiatives envisions a
results-oriented organlUltion rather than one which is driven by internal
processes and procedures.

The FInancial Statement audits of the Railroad Retirement Board for fiscal
years 1993 and 1994. performed by Arthur Andersen UP, identlfted the
organizational structure of the agency as a material weakness in the control
environment. These reports stated that the structure created an atmosphere
which emphasized individual bureau goals rather than overall agency
objectives.

In response to the external demands and control weakness, the Board
Members approved a reorganization plan for the agency at its November 1994
meeting to become effective January 3, 1995. The 010 reviewed the Board's
reorganization plan and concluded that the agency should implement
additional, more radical changes to streamline operations and create a more
flexible and efficient environment focused on results.

The OIG submitted its ReInvention Proposals to the Chairman of the Board in
Januazy 1995. The proposals recommended changing the organizational
structure of the RRB and improving the utillzation of technology. The
proposals also questioned the need for maJnWntng a network of 86 field offices
despite a dramatic decline in the number of railroad employees covered by the
RaUroad Retirement Act. The recommendations, if implemented. would allow
the agency to streamline its operations and reduce unnecessary managerial
 and supervisory oversight. The recommendations ident1fted over 400 positions
 which, if elimfnated. could provide savings in excess of $21 m1ll1on annually.

 A task force of agency staff members selected by the Board reviewed the OIG
 proposals and related issues. The task force rejected the OIG's two main
 proposals as too radical. and proposed more modest reductions in the number
 of field offices and a minor consolidation of the agency's organizational
 structure. The task force also recommended studying the use of additional
 technology in its service del1veIy methods although they stated that the field
 office structure was to continue as the primary means of service delivery. as
 had been the pI10r practice.


             ISSUE NUMBER ONE - ORGANIZATIONAL STRUCTURE

The OIG believes that the proposals regarding organizational structure set
forth by the Reinvention Task Force, and approved by the Board Members. will
not provide a signtftcant level of change. The OIG's recommendation to
establish five Independent bureaus was made to appropriately align functional
specialties, allow clearer focus on the major issues facing these bureaus and
reduce layers of SUpervision between senior managers and employees within
these bureaus.

Although the RRB Reinvention Task Force Report identlfted several areas to
reduce the number of positions. much more needs to be done. as severaIlong­
term problems remain. The agency will be required to make substantial
reductions in staffing to meet the Administration's proposed budget figures for
the next four years. To meet the customer service demands without
significantly changlng the service delivery methods, the cuts w1ll have to come
from administrative positions.         .

The Board's reorganization (see the following page) aligned the agency's
orgarnzational units into two primary areas; Programs and Administration. The
Office ofAdministration includes the bureaus responsible for flnanc1al
operations, actuarial reporting and statistical compilation and information
systems In addition to the more general support functions. The Office of
Programs is responsible for the processing of all benefit entitlements.

As of March 30. 1995. a total of 959 employees were reporting to the Director
of Programs (OP) whUe the number reporting to the Director ofAdministration
(DA) totalled 465 employees. ThIs represents a ratio of support to line
personnel of 1 to 2.1. Greater emphasis must be placed on accurate processing
of benefit payments in a timely manner. The agency should concentrate Its
resources on customer service. not admin1strative tasks.


                                      2
          CURRENT ORGANIZAnON CHART





                                                    THE BOARD
                                                  CHAIRMAN

                OFFICE OF
           INSPECTOR GENERAL     1---­          LABOR MEMBER

                                              MANAGEMENT MEMBER


                                                         I

                     I
                                  I
                               I

                                                  OFFICE OF
                          OFFICE OF

          OFFICE OF PROGRAMS

                                               GENERAL COUNSEL
                     ADMINISTRATION





  BUREAU OF
                 OFFICE OF
                                                           BUREAU Of
                                                     OFFICE OF          SECRETARY TO
UNEMPLOYMENT
             RETIREMENT AND
 ~                        I­
                                                                                                 INFORMATION
                                                    LEGISLATIVE
         THE BOARD
 AND SICKNESS
               SURVIVOR                                                              SYSTEMS
                                                      AFFAIRS

  INSURANCE
                PROGRAMS


  BUREAU OF
                                                                                      BUREAU Of
                            BUREAU OF                                    BUREAU OF
DISABIUTY AND

  MEDICARE

                 ~          RETIREMENT
                             BENEFITS
                                         -           BUREAU OF
                                                       LAW
                                                                   ~       FISCAL
                                                                         OPERATIONS
                                                                                                RESEARCH AND
                                                                                                 EMPLOYMENT
 OPERATIONS
                                                                                      ACCOUNTS



                            BUREAU OF                BUREAU OF           BUREAU OF
                                                                         SUPPLY AND              BUREAU Of
  BUREAU OF
     ~          SURVIVOR     I­          HEARINGS      I­                              QUAUTY
FIELD SERVICE
               BENEFITS               AND APPEALS           SERVICE
                                                <
                                                                                                 ASSURANCE

      I

  REGIONAL

   OFFICES
          -      BUREAU OF
                             TAXATION
                                                                          BUREAU OF
                                                                         THE ACTUARY
                                                                                                 BUREAU Of
                                                                                                 PERSONNa




                                                                                                 OFFICE OF
                                                                          OFFICE OF                EQUAL
                                                                        PUBLIC AFFAIRS          OPPORTUNITY




                                                       3

 OIG Proposal

The tnitial proposal made by the OIG called for a more radical change to the

organizational structure by grouping sfmj)ar functional areas into five larger

bureaus.




PROPOSED ORGANIZATIONAL STRUCTURE



  :INSPECTOR                         ~HE
   GENERAL                          BOAlU)




      I	                I                             I	              I
  BENEFX~           FDlANCnL     INFORMA~XON       LEGAL        ADMINXS~RA~XVE
  PADCENT           OPERATXONS     SYS'l'EMS      AFFAI:RS         SERVI:CES

  PROGRAMS





The OIG proposal for reorganization was made in consideration of the following
factors:

      •	       Too many bureaus had been created and the fragmentation of
               operating units promoted the interests of individual bureaus
               rather than overall agency goals.

      •        Micromanagement is encouraged by creating numerous and
               narrowly defined organiZational units.

     •         The delivery of services through a network of field offices is
               outdated in terms of technological changes and ignores the
               demographic changes occurring throughout the railroad industry.

     •        External pressures require that the RRB reconsider the
              mechanisms it uses to deliver selVices to its customers. The
              requirements of the NPR do not contemplate a fine-tuning of
              operations but rather a radical reinvention of the processes used
              by the agency.


                                         4
 Reducing the number of bureaus will permit the consolidation of supervisory,
 managerial and adm1n1strative employees. It will also decrease the number of
 G5-14,15 and Senior Executive Service positions as recommended by the NPR
 and mandated by the Administration.


 Benefit Programs
 The Bureau of Benefit Payments combines eight offices and bureaus from the
 existing organization structure:

       Office of Programs
       Bureau of Unemployment and Sickness Insurance
       Bureau of Disability and Medicare Operations
       Bureau of Field Service
       Bureau of Taxation
       Office of Retirement and Survivor Programs
       Bureau of Retirement Benefits
       Bureau of Survivor Benefits

The organizational advantages to having a combined Bureau of Benefit
Programs include:

       • Eliminating barriers between bureaus.
       • Providing a single source for benefit information.
       • Promoting more' efficient use of human resources.

Currently, the agency has five program bureaus which share the same basic
mission of providing service to those individuals entitled to benefits under the
Railroad Retirement Act and the Railroad Unemployment Insurance Act. The
primary tasks are to adjudicate and authorize claims for benefits, and to
provide information and assistance to covered workers and their beneficiaries.

Despite having a common mission, the current headquarters structure
encourages behavior which emphasizes achieving individual bureau goals
rather than focusing on the larger issue of prOviding the best possible seIVice
to the primary customers of the RRB. covered workers and benefit recipients.

Current practice for the RRB is to have individuals contact their local field
office to answer questions about their benefits. A similar call to headquarters
would result in the call being transferred to several different bureaus. There is
no reason that service representatives in the Bureau of Benefit Programs
cannot handle inquiries in the same manner without having calls transferred
to several different bureaus. A central benefits unit will also provide for the
most economical method of utilizing automated information technology.

                                         5
 In addition to the common objectives shared by the existing bureaus, the
 underlying data to determine benefit eligibility and the procedures necessary to
 process claims and deliver the benefits are also consistent for each bureau.
 The commonality of purpose and activity strongly support the proposal for
 combining the bureaus.

 As identified by the field service representatives on the agency's task force, the
current information systems are focused on the needs of the individual
bureaus at headquarters. To provide answers to beneficiary questions. field
service staff must get information from three or more different systems which
Is slow and inefficient. The task force recommended development of new
applications which will consolidate this data to meet the field service's needs.
This type of initiative should be expanded for use throughout the entire
agency.

A single benefits function will prOvide management with the flexibility to
allocate personnel to those areas where the greatest need occurs. Broader
career paths should also develop as individuals can be trained in a variety of
benefit areas rather than concentrate on a more narrow speCialization. This
type of training and development is currently provided to field service staff and
could easily be adapted to the headquarters.

As stated earlier, consolidating the bureaus will reduce the number of
managerial, supervisory and administrative personnel. As an example, the
elimination of the Office of Retirement and Survivor Programs (ORSP) will
enable the Director of Programs to review the existing thirteen defined units
within ORSP and determine how the overall bureau can be streamlined to
reduce administrative oversight.

The existing offices and bureaus reporting to the Director of Programs include
60 individuals who are responsible for the development, analysis. evaluation
and training related to policies and procedures. Consolidation will reduce this
number by one-half and integrate procedural manuals for the processing of
benefit payments. Similarly, the individual offices of the bureau directors
within Benefit Programs includes 33 positions. A substantial reduction in FfEs
should be realized by consolidation in this area as well.

Efficiency in operations through greater integration of systems applications,
combining policies and procedures and the reduction in supervisory personnel
also support the OIG recommendation.




                                        6

 Financial Operations

 The Bureau of Financial Operations should include the following from the
 current structure:

       Office of Adnlln1stratlon

       Bureau of Fiscal Operations

       Bureau of Research and Employment Accounts

       Bureau of the Actuary


The consolidation is proposed to reflect the accounting. financial and
statistical needs of the RRB and the reporting requirements inherent in these
functions. The functions shared by these separate organizations include the
compilation of financial and demographic data. analysis of financial trends and
the impact of these on the financial stability of the RRA and RUIA trust funds.
In addition. many of the current tasks performed by the Office of
Administration are directly related to financial and statistical activities.

Each of the bureaus noted above has direct responsibility or is directly
impacted by coverage issues. financial interchange activity, railroad
employment levels. the budgetary process and general economic conditions.
Closer coordination of the related activities will occur as these bureaus are
combined. The consolidated Bureau of Financial Operations will become
focused on long-term financial concerns and not confined to a more narrowly
defined portion of each issue. Emphasis will shift to results which are in the
best interests of the RRB's customers. This organization should report to a
senior manager who is also designated as the Chief Financial Officer.

Administrative tasks can be combined and supervisory levels reduced as part
of this consolidation. For example. the existing Bureau of Fiscal Operations
(BFO) is one of the largest support offices in the RRB and has one of the
highest number of employees in grades GS-14 and above. BFO has defined
seventeen organiZational units encompassing 88 positions. By redUcing the
number of divisions from seven to three the supervisory ratio should be
substantially improved and the administrative functions combined to avoid any
overlap. The divisions reporting to the position of Controller should be :

     Accounting and Financial Management Division
     TreastiIy and Debt Recovery Division
     Audit & Compliance Division

The revised structure would enable the current Deputy FinanCial Officers to
head the larger diVisions and substantially reduce the number of sections
defined under the existing structure. The Audit & Compliance division would
report to the Controller.

                                       7
 Information Systems

 The Board's reorganization consolidated the Bureau of Data ProceSSing, the
 Bureau of Systems Initiatives and the Bureau of Information Resources
 Management into the Bureau of Information Systems (BIS) reporting to the
 Director of Administration. The DIG proposed that the consolidated bureau
 report directly to the Board to ensure BIS would support all agency bureaus.
 especially Benefit Programs.

Additional coordination of the planning for and implementation of new systems
applications is particularly important if the RRB expects to take advantage of
technological improvements in the area of benefit proceSSing. Particular
emphasis Is needed to ensure that an integrated approach to systems planning
Is used instead of single purpose applications for each of the benefit programs.
An independent BIS working with a single benefits bureau can best achieve
this type of coordination.

Overall service to the RRB will also improve through an independent BIS.
Currently. BIS Is one of the largest bureaus in the agency with nearly 200
FTEs; however. many bureaus support their own automation efforts through
local area networks and individual software applications. The Chief
Information Officer should determine the extent to which duplication exists
and the best method of providing services to the agency. The organization of
BIS should also be reviewed espec1ally in the Data Processing Group where 24
separate units have been defined .


Legal Affairs

The Bureau of Legal Affairs combines the follOwing organiZations:

      Office of General Counsel

      Office of Legislative Affairs

      Bureau of Law

      Bureau of Hearings and Appeals


The reporting relationships for this organization remain the same as in the
Board's reorganization plan. The DIG proposes that the individual bureau
structure be eliminated to reflect the common features of each function and
promote the highest level of coordination and cooperation by allowing the
General Counsel greater centralized control over these related activities. The .
combined entity also provides the opportunity to consolidate routine
administrative tasks. and reduce the number of senior executives and
managers.


                                       8

 Administrative services

The combination of a Bureau of Administrative Services merges five entities:

        Bureau of Supply and Service
        Bureau of Personnel
        Bureau of Quality Assurance
      . Office of Public Affairs
        Office of Equal Opportunity

The bureau consolidates the smallest organizational units in the agency with
less than 100 employees in total. Although these current bureaus have
divergent functions. the primary objective of each of these units is to provide I
specific advice or services to the entire agency. Providing centralized control for
these support functions will assist the RRB in maximizing the utilization of its
human and physical resources.

Certain aspects of these services such as folder preparation in the Bureau of
Supply and Service and the measurement of benefit accuracy in the Bureau of
Quality Assurance should be transferred to the Bureau of Benefit Payment
Programs so that the focus of this bureau will be on agency-wide services.
There also exists inherent interrelationships between the Bureau of Personnel
and the Office of Equal Opportunity with respect to hiring. promotion and the
implications of labor relations; the OIG recommends these functions be
combined.

Similar to Legal Affairs. a separate organization of Administrative Services
should allow for efficiencies in the performance of routine· reporting and
administrative tasks. This consolidation will allow the RRB to most effectively
manage its human and physical resources and meet its customer service
objectives.


RECOMMENDATION

The Office of Inspector General recommends that the Board adopt the
proposed organizational structure which includes five bureaus that combines
functional responsibilities and emphasizes agency-wide objectives of customer
service and efficiency.




                                       9

                ISSUE NUMBER TWO - FIELD OFFICE STRUCTURE

 OIG Proposal

The ala Proposal recommended a complete reengineering of the field service
with a reduction in the number of offices from 86 to 10 and reducing the
number of FrEs by 255. The recommendation concluded that the changing
demographics Within the railroad industIy and the availability of automated
processing technology negated the need for a wide network of field offices
where the primary method of service delivery was individual interviews.

The proposal for 10 offices would provide:

      •	     Sufficient geographic coverage to maintain a local
             perspective and knowledge base while providing for in-state
             coverage for over half of all annuitants and workers:

      •	    Adequate availability and access to covered employees and
            beneficiaries so that if a personal interview was necessary a field
            representative could respond in a timely manner; and

      •	    A concentration of resources located near the highest
            density of covered workers to allow for presentations to
            railroad employers and their employees. Video conferencing and
            similar automated methods could be used to service other more
            remote locations.


The most recent actuartal valuation projects a continued decline in the
number of covered railroad employees and a substantial drop in the number of
railroad retirement annuitants within the next ten years. The shift to serving
more beneficiaries than active employees should have been accompanied by a
shift to a more centralized maintenance of records effort rather than
continuing the current emphasis on a network of field offices. The service
requirements for an annuitant should be considerably less than that required
to support the informational needs of employees as they are applying for
benefits.


                                       10
The RRB Reinvention Task Force recommended reducing the number of field
offices to 53 by the end of fiscal year 1998 and concurred with the expanded
use of automated application and benefit processing methods. The prtmary
differences between the two proposals is the size of the field service to be
maintained and where the central1zation of processing should occur.

The RRB Task Force suggested that each remaining field office would be the
preferred source of service delivery. The OIG believes that greater economies of
scale and greater control can be achieved by a central processing facility
located in the headquarters building. The trend to a centralized benefits
processing unit is also consistent with current practices in private industry
which has recognized that one on one servicing is the least efficient method of
delivering service.

The Task Force consolidation of field offices suggests a reduction in FIEs from
425 to 375 including the headquarters staff. This reduction is insignificant
because although the authOrized level is 425 FTEs the current utilization is
388 as noted in the detail of the task force report. The net reduction would
only be 13 below the current level. The OIG recommendation would reduce the
number of positions to approximately 146 FIEs, a reduction of 242 FTEs from
the current level.


RECOMMENDATION

The Office of Inspector General recommends that the Board Members
reengineer the field service delivery process by reducing the number of field
offices to 10. The consolidation of offices should consider demographic changes
and alternate methods of service delivery through more effective use of existing
technology.




                                      11

               ISSUE NUMBER THREE - ORGANIZATIONAL CULTURE


 The culture of an organization encompasses not only what it does and how it
 performs its mission, but also includes the beliefs of its employees and the
 manner in which it relates to internal and external customers. Cultural Change
 is usually required to respond to external pressures such as technological
 changes or in many business settings by competitive pressures. The culture of
 the RRB has evolved over nearly 60 years and in many respects has changed
 VeIy little. Requirements to reduce the number of FrEs by 300.,1) over the next
 five years necessitate changes in the organizational culture.

The NPR report recommended dramatically changing the way Federal
government agencies operate. The Railroad Retirement Board has initiated any
number of task force studies, but has responded in piecemeal fashion to
recommendations from them. Material control weaknesses as noted in the
previously referenced audited financial statements have been responded to by
treating the symptoms rather than the root cause. Minor changes to the status
quo have been the typical response.

One of the primary NPR principles is the philosophy of empowering
government workers to make decisions and be more entrepreneurial in their
approach to decision-making. As previously stated, delegation of authority and
the empowerment of employees are integral to streamlining government and
redUcing bureaucracy. The RRB must change its organizational culture from
one in which managers respond defensively to one in which risk taking is
encouraged and results are rewarded.

In September 1993, the RRB Total Quality Management Study Group issued
its final report which identified micromanagement by agency executives as one
of the barriers to quality at the agency. The task force recommended an
increase in both delegation of authOrity and empowerment.

Agency management has stated that it has embraced Total Quality
Management fTQM} for the RRB although there is no evidence of this action.
Key executives are not utilizing delegation and empowerment, which are
integral components ofTQM. Board Members are involved in many decisions
which should be delegated to lower levels. For example, the Board Members
must approve all relocations for Field Service positions. The Director of
Programs, a Senior Executive Service position, could approve the relocations
using a previously approved budget.

The Board is involved in too many personnel decisions which are four or more
levels lower in the organizational structure, and in this situation, managers are
asked to run their operations efficiently and effectively without being delegated
the authority to make routine decisions.

                                       12

The Board Members are also involved with program activities such as vertfyIng
the calculation of benefits on individual cases and providing information to
beneficiaries at meetings and conferences. These activities require additional
staff. which are typically at a higher grade than the agency staff whose tasks
they are duplicating. In addition. expending resources on program activities
diminishes the amount of time available for policy-type issues, which should
be the primary focus of the Board.

Similar to their counterparts in industry, the Board should concentrate its
efforts on an external orientation. Major strategic direction should be
established by the Board and implementation left to those to whom such
responsibility has been delegated. An external orientation in this context
means influencing the legislative and budgetary processes to ensure that the
agency receives the support necessary to cany out the RRB's basic mission.
the administration of the Railroad Retirement and Railroad Unemployment
Insurance Acts.

Another example of the current cultural environment is the practice of senior
managers and Board Members circumventing the chain of command to obtain
information. As long as this type of practice continues, the management
structure becomes ineffective and the authority of individual managers is
undermined.

To achieve a change in organizational culture, the Board must lead by example
and develop a strategic plan for the reinvention of the agency. The logical
starting point is the Strategic Plan presented to the Board in December of 1994
which has not yet been adopted.

The Plan for the agency should be amended and shared with employees. Key
elements should include:

      • Delegation of authority

      • Employee empowerment

      • Automation efforts

      • Customer setV1ce.

      • Continuous quality improvement

      • Rewards based upon performance




                                     13

Creating an atmosphere conducive to changing the organizational culture is
achieved through communication and tra1n1ng,

The Board should foster an atmosphere in which employees and managers are
willing to take risks to improve the agency, This can only occur if the
employees are not afraid of making mistakes, Otherwise, employees and
managers will resort to inaction rather than take an action which may result in
criticism.
Changes to the existing culture can assist in streamlining the agency. When
managers are provided a specific performance measure to achieve, delegated
the authority to get the tasks completed, empowered to make the day to day
decisions, and do not feel threatened by making mistakes, they will cut
through the red tape to accomplish their mission.
True commitment to modem management principles must be a top down
initiative. The Board must demonstrate to employees that change is occurring
through appropriate delegation of responsibility and the authority
commensurate with that responsibility.

RECOMMENDA1'IONS

To initiate a change in the organizational culture of the agency, the Board
Members should:

      •     Communicate to employees how the agency will focus on
            the delivery of services to its customers in the future:

      •     Evaluate the management tasks performed in their office to
            identify staff reductions and decisions that can be delegated to a
            lower level and controlled through perfonnance measurement:

      •     Direct each office and bureau in the agency to perform a similar
            evaluation to ensure that efficiency is achieved and customer focus
            is maintained: and

      •     Concentrate their efforts on policy issues and eliminate
            micromanagement thereby allowing the chain of command to
            operate effectively.
                            \




                                      14

CONCLUSION
The environment in which the RRB operates is changing dramatically. In order
to continue to serve its constituencies as a viable and independent agency, the
RRB must change the way in which it accomplishes its mission. Current
operating methods and processes will not support the same level of customer
service given the reduced level of staffing currently proposed for the agency.
More importantly, customer service will not improve unless new methods of
operating are employed.

The time frame in which to respond to the significant reductions in staffing is
very short. In the past, as agency staffing decreased, incremental reductions
were made in the operating bureaus. An analysis of the current and projected
workloads indicates that the agency cannot continue to make small,
incremental changes deSigned to simply meet the authorized staffing levels.
Absent a significant proactive initiative by the Board, the RRB will not be able
to maintain service levels and address its need to improve the overall control
environment.                                                   .




                                       15

This document was scanned for electronic
      distribution on April 20, 2009.

     Inquiries should be directed to:

       Office of Inspector General
     U.S. Railroad Retirement Board
            844 N. Rush Street
          Chicago, Illinois 60611

        Telephone: 312-751-4690
